                                              EMPLOYEE BENEFITS SECURITY
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              EBSA NEEDS TO DO MORE TO PROTECT
                                              RETIREMENT PLAN ASSETS FROM CONFLICTS
                                              OF INTEREST




                                                                  Date Issued:   September 30, 2010
                                                               Report Number:      09-10-001-12-121
U.S. Department of Labor
Office of Inspector General                                        September 30, 2010
Office of Audit
                                                                   EBSA NEEDS TO DO MORE TO PROTECT
                                                                   RETIREMENT PLAN ASSETS FROM CONFLICTS OF
BRIEFLY…                                                           INTEREST
Highlights of Report Number: 09-10-001-12-121, to the
Assistant Secretary for the Employee Benefits Security             WHAT OIG FOUND
Administration.                                                    EBSA has taken several actions to evaluate and reduce
                                                                   risk of harm to plan participants and beneficiaries from
WHY READ THE REPORT                                                conflicts of interest in service providers. For example,
                                                                   EBSA (1) developed two new regulations regarding fee
The report discusses EBSA’s efforts to protect pension             determinations and disclosures and is requiring this
plan assets from conflicts of interest in pension plan             information be reported to EBSA; (2) followed up on the
service providers. Conflicts of interest affecting pension         2005 SEC report on conflicts of interest and initiated 12
plans arise when a service provider has competing                  specific investigations; (3) worked with the SEC to
professional or personal interests. Such competing                 develop guidelines for plan fiduciaries to use in
interests can hinder the service provider’s and the plan           selecting and monitoring specific service providers, and
fiduciary’s ability to fulfill duties impartially and act solely   (4) implemented the Consultant Adviser Project, which
in the interest of plan participants or beneficiaries.             concentrated resources on improper, undisclosed
                                                                   compensation by certain service providers.
Conflicts of interest are of concern in most ERISA
covered pension plans. In 2005, the SEC examined 24                While these actions go a long way toward creating
service providers who were registered investment                   transparency in plan activities and improving
advisers; and therefore, fiduciaries under SEC rules.              protections for plan assets and participant benefits,
The SEC found inadequate disclosure of continuing                  EBSA needs to do more to protect plan participants and
conflicts of interest in 13 of the 24 service providers (54        beneficiaries from conflicts of interest in service
percent). These 13 service providers, as investment                providers. Specifically, EBSA needs to address other
advisers, had more than $4.5 trillion in assets under              critical regulatory areas, such as broadening the
advisement. Furthermore, these service providers had               definition of fiduciary status for investment advisers,
contracted with defined benefit plans that had total               requiring disclosure of all conflicts of interest and
assets of $183.5 billion and average assets of $155.3              consideration of these conflicts of interest by plan
million per plan.                                                  fiduciaries when selecting service providers.

WHY OIG CONDUCTED THE AUDIT                                        The narrow definition of a fiduciary and the lack of
The audit objective was to answer the question: Has                regulations dealing with conflicts of interest has
EBSA taken action to evaluate and reduce risk of harm              hampered EBSA’s enforcement program. For example,
to plan participants from conflicts of interests in pension        while the SEC reviewed 24 pension service providers
service providers?                                                 and took action on 13 instances of inadequate
                                                                   disclosure of conflicts of interest, EBSA, using its
                                                                   regulations, could not take any enforcement action on
READ THE FULL REPORT                                               the inadequate disclosure to pension plans.
To view the report, including the scope, methodology,
and full agency response, go to:
                                                                   WHAT OIG RECOMMENDED
http://www.oig.dol.gov/public/reports/oa/2010/09-10-               The OIG recommended that EBSA: (1) broaden the
001-12-121.pdf.                                                    definition of a fiduciary for investment advisers, and (2)
                                                                   develop regulations requiring disclosure of all conflicts
                                                                   of interest and consideration of conflicts of interest in
                                                                   selection of service providers.

                                                                   The Assistant Secretary for the Employee Benefits
                                                                   Security Administration agreed with the finding and
                                                                   recommendations.
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                               Service Provider Conflicts of Interest
                                     Report No. 09-10-001-12-121
                                                      U. S. Department of Labor – Office of Inspector General 




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1



Results In Brief .............................................................................................................. 3



Objective — Has EBSA taken action to evaluate and reduce risk of harm to plan 

participants from conflicts of interests in pension service providers? ................... 4

          Finding — EBSA Needs To Develop Additional Regulations To Protect 

             Plan Participants And Beneficiaries From Conflicts Of Interest In 

             Service Providers. ........................................................................................... 4


Recommendations ...................................................................................................... 10



Appendices                                                                                                                    11
          Appendix A Background ..................................................................................... 13

          Appendix B Objectives, Scope, Methodology, and Criteria ................................ 15

          Appendix C Acronyms and Abbreviations .......................................................... 17

          Appendix D EBSA Response to Draft Report ..................................................... 19

             Appendix E Acknowledgements.................................................................... 20

          Appendix E Acknowledgements ......................................................................... 21





                                                                                     Service Provider Conflicts of Interest
                                                                                           Report No. 09-10-001-12-121
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                               Service Provider Conflicts of Interest
                                     Report No. 09-10-001-12-121
                                      U. S. Department of Labor – Office of Inspector General 



U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




September 30, 2010

                         Assistant Inspector General’s Report



Phyllis C. Borzi
Assistant Secretary
 for the Employee Benefits Security Administration
US Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted a performance audit of the
Department of Labor’s (DOL) Employee Benefits Security Administration’s (EBSA)
oversight of pension plan service providers’ conflicts of interest.

The private retirement system in the United States involves about $6 trillion of
investments for more than 124 million Americans. There are about 708,000 retirement
plans throughout the country.

The Employee Retirement Income Security Act of 1974 (ERISA) is the primary federal
law governing the investment of these assets and private sector employee benefit plans
in general. ERISA assigns DOL primary responsibility to enforce the fiduciary provisions
of ERISA Title I. DOL administers this responsibility through EBSA.

ERISA relies heavily on the designation of fiduciaries and adherence to fiduciary
standards of conduct to protect plan participants and beneficiaries. The plan document
of an employee benefit plan identifies specific fiduciaries responsible for administering
the plan. ERISA also defines other types of persons who may be a plan fiduciary and
specifically states a person providing investment advice for a fee is a fiduciary to the
plan.

Under ERISA’s fiduciary standards, plan fiduciaries must act solely for the benefit of the
participants and beneficiaries, and must act (1) exclusively for providing benefits and
defraying expenses; (2) with skill, care, prudence, and diligence; (3) by diversifying
investments; and (4) by following plan requirements.

To administer an employee benefit plan, plan fiduciaries often contract with service
providers to provide professional services, such as assisting in determining the plans
investment objectives and restrictions, allocating plan assets, selecting money
managers, choosing mutual fund options, tracking investment performance, and
selecting other service providers. Conflicts of interest affecting the plan arise when a

                                                                   Service Provider Conflicts of Interest
                                              1                          Report No. 09-10-001-12-121
                                               U. S. Department of Labor – Office of Inspector General 



service provider has competing professional or personal interests. Such competing
interests can hinder the service provider’s and the plan fiduciary’s ability to fulfill duties
impartially and act solely in the interest of plan participants or beneficiaries. For
example, a plan’s investment adviser may receive compensation from a mutual fund
company based on share purchases made by the plan’s participants. This could sway
the adviser’s recommendations to buy that mutual fund company’s shares.

Conflicts of interest are of concern in most ERISA covered pension plans. In 2005, the
Securities and Exchange Commission (SEC) examined 24 service providers 1 who were
registered investment advisers; and therefore, fiduciaries under SEC rules. The SEC
found inadequate disclosure of continuing conflicts of interest in 13 of the 24 service
providers (54 percent). These 13 service providers, as investment advisers, had more
than $4.5 trillion in assets under advisement. Furthermore, these service providers had
contracted with defined benefit plans that had total assets of $183.5 billion and average
assets of $155.3 million per plan.

Furthermore, in 2007, the Government Accountability Office (GAO) also issued a report
stating that conflicts of interest involving high-risk or terminated plans posed
enforcement challenges to EBSA.

The audit objective was to answer the question: Has EBSA taken action to evaluate and
reduce risk of harm to plan participants from conflicts of interests in pension service
providers?

Our scope included all EBSA policies, procedures, and actions taken for identifying and
evaluating conflicts of interest in service providers from October 1, 2006, through
June 30, 2010.

We interviewed EBSA officials to obtain an understanding of the enforcement process
relative to conflicts of interest, to follow up on the SEC and GAO reports, and to obtain
information regarding proposed/final regulations relating to conflicts of interest. We
obtained a list of EBSA’s Consultant Adviser Project (CAP) cases as of
June 30, 2010, and a watch list of potential CAP cases as of February 1, 2010, to
understand how these cases were developed. We interviewed officials from the SEC to
obtain an understanding of the process used in developing the SEC report and
reviewed all 12 investigations initiated by EBSA because of the SEC report.

Finally, we reviewed a stratified random sample of 30 out of 2,455 fiduciary
investigations EBSA closed during FY 2009 to understand the investigation process
relative to conflicts of interest and interviewed the investigators for each case about the
process used to evaluate service provider’s conflicts of interest in the investigation.



1
 The 2005 SEC report uses the term “pension consultant” to refer to the persons/entities examined. The SEC
examination covered persons/entities who were registered investment advisers under the Investment Advisers Act of
1940. These “pension consultants” fall under the broad term “service provider” used in EBSA regulations.

                                                                          Service Provider Conflicts of Interest
                                                        2                       Report No. 09-10-001-12-121
                                                   U. S. Department of Labor – Office of Inspector General 



We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audits to obtain sufficient and appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provided a reasonable basis for our findings and conclusions based
on our audit objective.

RESULTS IN BRIEF

EBSA has taken several actions to evaluate and reduce risk of harm to plan participants
and beneficiaries from conflicts of interest in service providers. For example, EBSA (1)
developed two new regulations designed to provide better information regarding fee
determinations and disclosures and is requiring this information be reported to EBSA on
the Form 5500 2 ; (2) followed up on the 2005 SEC report on conflicts of interest by
reviewing all 24 SEC cases and initiating 12 specific investigations; (3) worked with the
SEC to develop guidelines for plan fiduciaries entitled “Selecting and Monitoring
Pension Consultants - Tips For Plan Fiduciaries;” and (4) implemented the CAP, which
concentrated resources on improper, undisclosed compensation by certain service
providers.

While these actions go a long way toward creating transparency in plan activities and
improving protections for plan assets and participant benefits, EBSA needs to do more
to protect plan assets and plan participants from conflicts of interest in service
providers. Specifically, EBSA needs to address other critical regulatory areas, such as
broadening the definition of fiduciary status for investment advisers, requiring disclosure
of all conflicts of interest and consideration of these conflicts of interest by plan
fiduciaries when selecting service providers. The narrow definition of a fiduciary and the
lack of regulations dealing with conflicts of interest has hampered EBSA’s enforcement
program. While the SEC/EBSA’s guidelines are helpful in focusing attention on conflicts
of interest, EBSA cannot incorporate the guidelines into its enforcement program
because it cannot enforce compliance unless there are regulations. The results of this
can be seen in that the SEC, in reviewing 24 pension service providers, found 13
instances of inadequate disclosure of conflicts of interest. EBSA, using its regulations,
could not take any enforcement action on the inadequate disclosure to pension plans.
EBSA did find two instances of prohibited transaction under ERISA in its review of the
SEC cases.

We made the following two recommendations that would strengthen EBSA’s
enforcement program relative to conflicts of interest: (1) broaden the definition of a
fiduciary for investment advisers, and (2) develop regulations requiring disclosure of all


2
  Each year, pension plans generally are required to file the Form 5500, Annual Return/Report of Employee Benefit
Plan, regarding their financial condition, investments, and operations. The Department of Labor, Internal Revenue
Service, and the Pension Benefit Guaranty Corporation jointly developed the Form 5500 series so employee benefit
plans could utilize it to satisfy annual reporting requirements under Title I and Title IV of ERISA and under the Internal
Revenue Code.


                                                                                Service Provider Conflicts of Interest
                                                            3                         Report No. 09-10-001-12-121
                                       U. S. Department of Labor – Office of Inspector General 



conflicts of interest and consideration of conflicts of interest in selection of service
providers.

In response to our report, EBSA stated that they agreed with the report
recommendations. Further, EBSA stated that the report reinforces EBSA’s view that
more can and should be done to address potential conflicts of interest and other issues
arising in connection with the selection of service providers. Regarding the
recommendations, EBSA indicated they had started over a year ago to broaden the
definition of a fiduciary. EBSA also stated one of its highest priorities has been the
adoption of a regulation that would ensure plan fiduciaries are furnished the information
they need to make informed decisions about service providers.

EBSA’s written response to the draft report is provided in its entirety in Appendix D.

RESULTS AND FINDING

Objective — Has EBSA taken action to evaluate and reduce risk of harm to plan
            participants from conflicts of interests in pension service providers?

EBSA has taken several actions to evaluate and reduce risk of harm to plan participants
from conflicts of interest in service providers. However, to further increase protections
for plan participants and beneficiaries, EBSA needs to develop additional regulations to
broaden the definition of a fiduciary as it relates to investment advisers, require service
providers to disclose all conflicts of interest, and clearly require plan fiduciaries to
consider all conflicts of interest in selecting service providers.

Finding — EBSA Needs To Develop Additional Regulations To Protect Plan
         Participants And Beneficiaries From Conflicts Of Interest In Service
         Providers.

EBSA needs to develop additional regulations relating to conflicts of interest and
incorporate these regulations into its enforcement program to better protect plan
participants and beneficiaries. Specifically, EBSA needs to address the following critical
regulatory areas: (1) broadening the definition of fiduciary status for investment
advisers, (2) requiring disclosure of all conflicts of interest, and (3) requiring fiduciaries
to consider conflicts of interest when selecting service providers. The narrow definition
of a fiduciary and the lack of regulations dealing with conflicts of interest has hampered
EBSA’s enforcement program relative to conflicts of interest. As a result, EBSA has not
been able to take enforcement action on lack of disclosure by service providers or
ensure plans have appropriately considered conflicts of interest in selecting service
providers.

Definition of a Fiduciary Needs to be Broadened — ERISA’s protections for
employee benefit plans are heavily dependent on the assignment of fiduciary duties and
responsibilities to protect plan assets and plan participants and beneficiaries. ERISA
Section 402(a)(1) requires that plans have at least one named fiduciary responsible for


                                                              Service Provider Conflicts of Interest
                                               4                    Report No. 09-10-001-12-121
                                       U. S. Department of Labor – Office of Inspector General 



administering the plan. ERISA Section 404(a)(1) further requires fiduciaries to be
prudent and act only for the benefit of the plan participants and beneficiaries while
diversifying assets and complying with plan documents.

Section 3(21)(A) of ERISA provides that a person is a fiduciary with respect to a plan to
the extent (i) he exercises any discretionary authority or discretionary control respecting
management of such plan or exercises any authority or control respecting management
or disposition of its assets, (ii) he renders investment advice for a fee or other
compensation, direct or indirect, with respect to any moneys or other property of such
plan, or has any authority or responsibility to do so, or (iii) he has any discretionary
authority or discretionary responsibility in the administration of such plan.

EBSA has issued regulations specifying that to be considered as rendering investment
advice and be considered a fiduciary under (ii) above, a person must 1) give advice
regarding the purchase or sale of securities or other property of a plan; 2) on a regular
basis; 3) pursuant to a mutual agreement, arrangement, or understanding; 4) as a
primary basis for investment decisions; and 5) based on the particular needs of the
plan. According to EBSA, investment advisers use these criteria to avoid meeting the
definition of a fiduciary and therefore, are not liable for meeting fiduciary standards. This
has been particularly true for investment advisers from large companies with the
resources and sophistication to be aware of technicalities and approaches that can
enable the investment adviser to avoid fiduciary status and liability.

Without this status, EBSA cannot enforce conflict of interest issues. For example,
without fiduciary status EBSA cannot hold a service provider to a standard of prudent
action or actions only for the benefit of the participants. This is required only of
fiduciaries. Without fiduciary status, EBSA cannot hold a service provider liable for
fiduciary breaches.

This was evident in EBSA’s review of the results of the 2005 SEC study regarding
conflicts of interest. For its study, the SEC used its own criteria: The Investment
Advisers Act of 1940 and related interpretations. All advisers registered under this act,
owe their clients a fiduciary duty. Using this criteria, the SEC considered all 24 service
providers examined to be investment advisers and fiduciaries. Furthermore, 13 of the 24
investment advisers had not met their fiduciary duty to disclose all material conflicts of
interest to pension plan clients.

When EBSA reviewed the 24 cases, it found 12 potential ERISA violations. When EBSA
then applied its definition of a fiduciary, it did not consider 3 of the 12 investment
advisers to be fiduciaries at all under its criteria, and did not consider 3 other investment
advisers to be fiduciaries to all plans they served, which complicated enforcement.
Overall EBSA’s review of the investment advisers in the SEC study found two cases
involving ERISA violations.

In these two cases, the investment advisers were fiduciaries under EBSA regulations
and were engaged in prohibited transactions. In one case, the investment adviser, as a


                                                             Service Provider Conflicts of Interest
                                              5                    Report No. 09-10-001-12-121
                                      U. S. Department of Labor – Office of Inspector General 



fiduciary, received undisclosed and unauthorized compensation, and failed to provide
timely promised commission rebates to certain ERISA plans. Since the investment
adviser met EBSA’s definition of a fiduciary to the plan, EBSA was able to hold the
investment adviser to fiduciary standards and take strong enforcement. EBSA obtained
restoration of more than $300,000 to the plan.

In some cases, the investment advisers essentially eliminated themselves from fiduciary
status. They simply stated in their investment adviser contract that they were not
fiduciaries. This put EBSA in a difficult enforcement position since one of the tests in
their fiduciary criteria for investment advice was that there had to be mutual agreement
between the plan and the investment adviser on the investment adviser’s status. If the
investment advisers stated in the contract that they were not fiduciaries, it would be
difficult for EBSA to show they had agreed otherwise, no matter whether the plan had
intended for the investment advisers to be fiduciaries.

EBSA wrote the fiduciary definition in 1974 and has not updated it. Financial and
business relationships have changed significantly since that time and the definition of a
fiduciary has not been kept current. As a result, EBSA frequently cannot effectively
address conflict of interest situations. Recognizing the new challenges and environment
in investments, EBSA had placed examining its definition of a fiduciary on its regulatory
agenda for 2010. Completing this regulation and broadening the definition of a fiduciary,
especially as it relates to investment advisers, is necessary to provide improved
protections for plan participants and beneficiaries.

EBSA Needs To Require Disclosure Of All Conflicts Of Interest — There is no
regulatory requirement for service providers to disclose all conflicts of interest to plan
fiduciaries. While it may be considered part of a fiduciary’s duty, EBSA has not had a
regulatory requirement in place requiring service providers to disclose all conflicts of
interest to plan fiduciaries. Therefore, it has been difficult for EBSA to take action when
service providers do not disclose all conflicts of interest. Disclosure of all conflicts of
interest is important because it is critical for plan fiduciaries to understand a service
provider's business relationships and arrangements with others in order to evaluate
whether these relationships may influence the service provider in its services to the
plan.

In recent years, there have been a number of changes in the way many service
providers assist in administering pension plans, the way clients compensate service
providers, and how service providers operate in relation to other businesses. The
complexity of these changes, particularly in the investment environment, has made it
more difficult for plan fiduciaries to understand what the plan actually pays for the
specific services rendered and the extent to which business relationships among
service providers present potential conflicts of interest that may affect the costs and
quality of services provided.

Section 404(a)(1) of ERISA requires plan fiduciaries, when selecting service providers,
to act prudently and solely in the interest of the plan’s participants and beneficiaries and


                                                            Service Provider Conflicts of Interest
                                             6                    Report No. 09-10-001-12-121
                                       U. S. Department of Labor – Office of Inspector General 



for the exclusive purposes of providing benefits and defraying reasonable expenses of
administering the plan. Fundamental to a fiduciary’s ability to discharge these
obligations properly is the availability of information, such as conflicts of interest,
sufficient to enable the fiduciary to make informed decisions about the services, the
costs, and the service provider itself.

In this regard, EBSA has published regulations concerning the disclosure and other
obligations of plan fiduciaries and service providers under ERISA. However, EBSA’s
regulations have not included a requirement that plan service providers disclose all
conflicts of interest, financial or otherwise. EBSA’s recently issued regulation (29 CFR
2550-408b-2) describes what constitutes a reasonable contract under ERISA, but does
not specifically require disclosure of all conflicts of interest, even if unrelated to
compensation for plan services. Until recently, it was possible to have a reasonable
contract or arrangement without disclosing any conflicts of interest, including financial
conflicts.

Recently, EBSA has developed several regulations including new disclosure
requirements of a reasonable contract for service providers, including investment
advisers, to the pension plans. For example, a new requirement in Form 5500,
Schedule C became effective on January 1, 2009. It requires the identification of any
person who rendered services to, or who had transactions with, the pension plan during
the reporting year if the person received, directly or indirectly, $5,000 or more in
reportable compensation in connection with services rendered to the plan.

Furthermore, in July 2010, EBSA finalized an interim-final regulation that will require
certain covered service providers to disclose the compensation they will receive, directly
or indirectly, in connection with its services to the plan. This is the first time for a
regulatory disclosure requirement for a service provider designed to ensure the service
provider provides ERISA plan fiduciaries the information they need to make better
decisions when selecting service providers for their plans. The final regulation will be
effective for contracts or arrangements between plans and service providers on July 16,
2011.

However, EBSA still does not require disclosure of all conflicts of interest. Specifically,
service providers do not have to disclose business or personal relationships not
involving compensation. For example, in one case the SEC found, a service provider
had not disclosed that financial institutions paid the service provider to attend a
conference the service provider provided for its clients. Specifically, to help defray the
costs of the conference, plan sponsor attendees paid a registration fee of $850 while
the financial institution paid a subsidy fee of $20,000. Since the service provider could
potentially evaluate some of the financial institutions, or their affiliates, as part of its
services to plan fiduciaries, this constituted a material conflict of interest to the SEC.
EBSA’s new regulations do not require this type of conflict to be disclosed.

In another case, the SEC found the majority of money managers recommended by a
specific service provider also purchased other products/services from the service


                                                             Service Provider Conflicts of Interest
                                              7                    Report No. 09-10-001-12-121
                                        U. S. Department of Labor – Office of Inspector General 



provider or its affiliates. Furthermore, according to the SEC, those money managers
who purchased one or more products or services from the company had a greater
chance of being recommended than those who did not purchase any such products or
services. The company failed to provide full disclosure that a material conflict of interest
existed when recommending money managers who provided it with compensation. This
arrangement would not be required to be disclosed under current EBSA regulations.

These cases show how conflicts of interest can go undisclosed under EBSA
regulations. During the audit, EBSA stated that the interim-final regulation might already
provide the requirement for the disclosure of all conflicts of interest and they are in the
process of providing clarifying interpretations. However, we do not believe the regulation
clearly requires disclosure of all conflicts of interest. EBSA needs to develop regulations
to require these conflicts of interest to be disclosed to plan fiduciaries.

EBSA Needs To Require Plans To Consider Conflicts Of Interest In Selecting
Service Providers — At the present time, EBSA regulations do not require plan
fiduciaries to consider conflicts of interest in selecting service providers. EBSA must
show damage to plan participants before it can take any action. As a result, plans may
not be considering conflicts of interest in selecting service providers.

As a result of the SEC report, EBSA and the SEC worked together to produce a
document titled “Selecting and Monitoring Pension Consultants – Tips for Plan
Fiduciaries.” It is a set of questions to assist plan fiduciaries in evaluating the objectivity
of the recommendations provided, or to be provided, by a pension consultant, one type
of service provider. The document specifically states:

              To encourage the disclosure and review of more and better
              information about potential conflicts of interest, the
              Department of Labor and the SEC has developed . . . {a} set
              of questions to assist plan fiduciaries in evaluating the
              objectivity of the recommendations provided, or to be
              provided, by a pension consultant.

The document has seven questions plan fiduciaries are encouraged to ask their pension
consultants to identify conflicts of interest and to encourage plan fiduciaries to assess
the potential impact of conflicts of interest.

However, the use of this document and the questions is not mandatory. Furthermore,
EBSA developed it for fiduciaries use in selecting pension consultants, which, according
to EBSA, does not include all service providers. There also is no requirement to
establish a process, which accomplishes the same purpose in performing the plan
fiduciary’s duty. EBSA has no means to enforce the guidance and does not formally
incorporate it into their enforcement program.

As a result, EBSA has not had any specific regulatory criteria to incorporate into its
enforcement program and no benchmark against which to measure the effectiveness of


                                                              Service Provider Conflicts of Interest
                                               8                    Report No. 09-10-001-12-121
                                       U. S. Department of Labor – Office of Inspector General 



plans selection of service providers. The lack of a requirement for plans to consider
service providers conflicts of interest has hampered EBSA’s enforcement process.

We reviewed a stratified random sample of 30 out of 2,455 fiduciary investigations that
EBSA closed in fiscal year 2009 in 6 out of 14 EBSA field offices. Of these 30 cases, we
identified 10 that had used investment related service providers. For these 10 cases we
reviewed the case file and the work done, and interviewed the case investigator. In
these 10 cases, due to the lack of enforceable regulations, EBSA did not determine if
the plan fiduciary had appropriately considered conflicts of interest in selecting their
service providers. While EBSA did review for evidence of conflicts of interest through
reviewing fees, there was no indication EBSA ensured plan fiduciaries considered
conflicts of interest in meeting their fiduciary duties in selecting service providers.

For example, in one case, a plan with more than $106 million in assets had hired an
investment adviser who advised using a specific mutual fund company for participant
investments. The adviser continued recommending this mutual fund company although
returns declined and the company was the subject of SEC investigations. The plan
finally hired another investment adviser to evaluate the investment performance and this
adviser recommended switching to another mutual fund company. There were no
regulatory conflict of interest requirements that the plan or its advisers had to meet in
selecting these service providers and, as a result, there was no evidence of
investigative work relative to whether the plan had appropriately considered conflicts of
interest in selecting these service providers.

Without a regulatory requirement for plan fiduciaries to specifically consider conflicts of
interest in selecting service providers, it is difficult for EBSA to hold plan fiduciaries
accountable for considering conflicts of interest. Rather, EBSA focuses on improper and
undisclosed compensation which has caused harm to participants and beneficiaries.
While this is also necessary and restores funds to plans when detected, additional
regulations requiring specific consideration of conflicts of interest in selecting service
providers would reduce the risk and provide EBSA an additional enforcement tool.

Overall, EBSA conducts more than 2000 fiduciary investigations each year. With a
broader definition of a fiduciary, requirements for disclosure of all conflicts of interest
and consideration of conflicts of interest in selecting service providers, EBSA would
incorporate these items into their investigative process and be able to ensure plans
have disclosure and consideration of all conflicts of interest in selecting service
providers. Furthermore, EBSA would have better enforcement tools to take action
against plans or service providers who do not disclose or appropriately consider
conflicts of interest.




                                                              Service Provider Conflicts of Interest
                                               9                    Report No. 09-10-001-12-121
                                        U. S. Department of Labor – Office of Inspector General 



RECOMMENDATIONS

We recommend that the EBSA:

   1. Broaden the definition of a fiduciary to align the definition with the current
      environment of investment financial services.

   2. Develop regulations requiring disclosure of all conflicts of interest by service
      providers to create transparency and accountability in plan activities for plan
      assets and participant benefits.


We appreciate the cooperation and courtesies that EBSA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                              Service Provider Conflicts of Interest
                                              10                    Report No. 09-10-001-12-121
               U. S. Department of Labor – Office of Inspector General 





Appendices 





                                     Service Provider Conflicts of Interest
                     11                    Report No. 09-10-001-12-121
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                               Service Provider Conflicts of Interest
               12                    Report No. 09-10-001-12-121
                                      U. S. Department of Labor – Office of Inspector General 



                                                                                  Appendix A
Background

The private retirement system in the United States involves about $6 trillion of
investments for more than 124 million Americans. There are about 708,000 retirement
plans throughout the country.

ERISA is the primary federal law governing the investment of these assets and private
sector employee benefit plans in general. ERISA assigns responsibility for employee
benefit plan oversight to DOL, the Internal Revenue Service, and the Pension Benefit
Guaranty Corporation. DOL, through EBSA, administers the fiduciary provisions of
ERISA governing plans actions regarding conflicts of interest.

ERISA relies heavily on the designation of fiduciaries and adherence to fiduciary
standards of conduct to protect plan participants and beneficiaries. The plan document
of an employee benefit plan identifies specific fiduciaries responsible for administering
the plan. ERISA also defines other types of persons who may be a plan fiduciary and
specifically states a person providing investment advice for a fee is a fiduciary to the
plan.

Employee benefit plans have named fiduciaries responsible for operating the plan solely
for the benefit of the participants and beneficiaries. Under ERISA’s fiduciary standards,
plan fiduciaries must act solely for the benefit of the participants and beneficiaries, and
must act (1) exclusively for providing benefits and defraying expenses; (2) with skill,
care, prudence, and diligence; (3) by diversifying investments; and (4) by following plan
requirements.

To administer an employee benefit plan, fiduciaries contract with service providers to
provide professional services, such as assisting in determining the plans investment
objectives and restrictions, allocating plan assets, selecting money managers, choosing
mutual fund options, tracking investment performance, and selecting other service
providers. Conflicts of interest affecting the plan arise when the service provider has
competing professional or personal interests. Such competing interests can hinder the
service provider’s ability to (a) fulfill their duties impartially and (b) act solely in the
interest of plan participants or beneficiaries. For example, a plan’s investment adviser
may receive compensation from a mutual fund company based on share purchases
made by the plan’s participants. This could sway the adviser’s recommendations to buy
that mutual fund company’s shares.

Conflicts of interest are of concern in most ERISA covered pension plans. In 2005, the
SEC examined 24 service providers who were registered investment advisers; and
therefore, fiduciaries under SEC rules. The SEC found inadequate disclosure of
continuing conflicts of interest in 13 of the 24 service providers (54 percent). These 13
service providers, as investment adviser, had more than $4.5 trillion in assets under
advisement. Furthermore, these service providers had contracted with defined benefit



                                                            Service Provider Conflicts of Interest
                                             13                   Report No. 09-10-001-12-121
                                      U. S. Department of Labor – Office of Inspector General 



plans that had total assets of $183.5 billion and average assets of $155.3 million per
plan.

In 2007, the GAO also issued a report concerning the conflicts of interest involving
high-risk or terminated plans. In the report, GAO concluded that conflicts of interest in
these plans present enforcement challenges to EBSA. Further, GAO indicated that
existing laws limits EBSA’s efforts to pursue conflicts and redress for financial harm
when certain service providers were either not fiduciaries under ERISA or did not
knowingly act in concert with fiduciaries. GAO recommended that Congress should
consider amending ERISA to expand DOL’s authority to recover losses against non-
fiduciaries.




                                                            Service Provider Conflicts of Interest
                                            14                    Report No. 09-10-001-12-121
                                     U. S. Department of Labor – Office of Inspector General 



                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the question: Has EBSA taken action to evaluate and
reduce risk of harm to plan participants from conflicts of interests in pension service
providers?

Scope

Our scope included all EBSA policies, procedures, and actions taken for identifying and
evaluating conflicts of interest in service providers from October 1, 2006 through
June 30, 2010.

We conducted our fieldwork at EBSA’s headquarters in Washington, DC and the
following EBSA field offices:

Atlanta, Georgia
Boston, Massachusetts
Detroit, Michigan
Miami, Florida
San Francisco, California
Seattle, Washington

Methodology

In performing our audit, we conducted interviews, researched applicable laws, reviewed
EBSA’s policies and procedures, and studied similar entities. Further, in our analysis of
EBSA’s oversight process, we examined a stratified random sample. Specifically, we
performed the following audit procedures:

   •		 We interviewed EBSA, Office of Enforcement (OE) officials to obtain an
       understanding of the enforcement process used relative to conflicts of interest in
       plan service providers.

   •		 We interviewed EBSA officials specifically about EBSA follow up on the SEC
       report on service providers.

   •		 We interviewed officials from the SEC to understand the process and 

       methodology used in the SEC report on service providers. 


   •		 We interviewed officials from the GAO to obtain information regarding the 2007
       GAO Report entitled “Conflicts of Interest Involving High Risk or Terminated
       Plans Pose Enforcement Challenges.”



                                                           Service Provider Conflicts of Interest
                                           15                    Report No. 09-10-001-12-121
                                       U. S. Department of Labor – Office of Inspector General 



   •		 We reviewed all 12 investigations initiated by EBSA because of potential 

       violations of ERISA identified in SEC report. 


   •		 We interviewed EBSA, Office of Regulations and Interpretations officials to obtain
       information regarding proposed/final regulations issued relative to conflicts of
       interest in plan service providers

   •		 We interviewed EBSA, OE officials to obtain an understanding of the process,
       which developed the CAP.

   •		 We obtained a list of all CAP cases as June 30, 2010 as well as a watch list of
       potential CAP cases as of February 1, 2010 to understand how these cases were
       developed.

   •		 We reviewed a stratified random sample of 30 out of 2,455 fiduciary
       investigations closed by EBSA during FY 2009 to test various investigation
       attributes. We also interviewed the investigators for each case selected to
       determine if EBSA had a process in place to detect and evaluate conflicts of
       interest during their fiduciary investigations.

A performance audit includes obtaining an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other requirements. Our work on internal controls included obtaining
and reviewing policies and procedures and interviewing key personnel. We gained an
understanding of the EBSA’s processes relative to our audit objectives and documented
a description of the controls. Our testing of internal controls focused only on the controls
related to our objectives of assessing compliance with significant laws, regulations, and
policies and procedures. We did not intend to form an opinion on the adequacy of
internal controls overall, and we do not render such an opinion.

Criteria

We used the following criteria to accomplish our audit:

   •		 Employee Retirement Income Security Act of 1974

   •		 Title 29 (Labor) - Code of Federal Regulation, Parts 2500 to 2599




                                                             Service Provider Conflicts of Interest
                                             16                    Report No. 09-10-001-12-121
                                 U. S. Department of Labor – Office of Inspector General 



                                                                             Appendix C
Acronyms and Abbreviations

CAP           Consultant Adviser Project

DOL           Department of Labor

EBSA          Employee Benefits Security Administration

ERISA         Employee Retirement Income Security Act of 1974

GAO           Government Accountability Office

OIG           Office of Inspector General

OE            Office of Enforcement

SEC           Securities and Exchange Commission




                                                       Service Provider Conflicts of Interest
                                        17                   Report No. 09-10-001-12-121
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                               Service Provider Conflicts of Interest
               18                    Report No. 09-10-001-12-121
                                U. S. Department of Labor – Office of Inspector General

                                                                                General


                                                                           Appendix D
EBSA Response to Draft Report




                                                      Service Provider Conflicts of Interest
                                      19                    Report No. 09-10-001-12-121
U. S. Department of Labor – Office of Inspector General 





                      Service Provider Conflicts of Interest
      20                    Report No. 09-10-001-12-121
                                    U. S. Department of Labor – Office of Inspector General 



                                                                                Appendix E
Acknowledgements

Key contributors to this report were Ralph McClane (Audit Director), Steve Chiang,
Richard Bryan, Tim Kerschen, Cassie Galang and Mary Lou Casazza.




                                                          Service Provider Conflicts of Interest
                                          21                    Report No. 09-10-001-12-121
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                               Service Provider Conflicts of Interest
               22                    Report No. 09-10-001-12-121
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	 http://www.oig.dol.gov/       hotlineform.htm 

Email:	 hotline@         oig.dol.gov 


Telephone:		   1-800-347-3756 

               202-693-6999 


Fax: 	         202-693-7020

Address: 	     Office of Inspector General 

               U.S. Department of Labor 

               200 Constitution Avenue, N.W. 

 Room                 S-5506 

               Washington, D.C. 20210 

